U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Carlos Rodriguez Fernandez v. United States, No. 20-7460
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 12,
2021. The government’s response is now due, after one extension, on May 17, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 21, 2021, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7460
FERNANDEZ, CARLOS RODRIGUEZ
USA

DONNA LEE ELM
1465 W WAGON WHEEL RD
SUITE 2700
COTTONWOOD, AZ 86326
6022997022

